NO. 19-_____

In the
Supreme Court of the United States
SHREVEPORT CHAPTER #237 OF THE
UNITED DAUGHTERS OF THE CONFEDERACY,

Petitioner,
v.

CADDO PARISH COMMISSION, ET AL.,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
PETITION FOR WRIT OF CERTIORARI

DICK “DAVE” KNADLER
COUNSEL FOR PETITIONER

LAW OFFICE OF DICK “DAVE” KNADLER, LLC

3223 FIRST STREET
MANSFIELD, LA 71052
(318) 925-1178
DKNADLER@HOTMAIL.COM

JULY 12, 2019
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i
QUESTIONS PRESENTED
In a 42 U.S.C. § 1983 action, the Petitioner Shreveport Chapter #237 of the United Daughters of the
Confederacy (“UDC”) filed its lawsuit in response to a
deprivation of its First, Fifth, and Fourteenth Amendment was based on the actions of seven commissioners of the Caddo Parish Commission (“Respondent”)
who voted on Resolution No. 69 of 2017 (“hereinafter
Resolution 69”). Resolution No. 69 ordered the UDC to
remove its Confederate Monument from the front of the
local courthouse. At the time of the Fifth Circuit decision, this Court had not ruled on The American Legion
v. American Humanist Association. See, The American Legion v. American Humanist Association, 588
U.S. ___ (2019). Under American Humanist Association, as owner of the monument the UDC does not
have to be the land owner in order to have standing
under 42 U.S.C. § 1983. And the UDC should have two
affirmative defense: i) the affirmative defense that
it has stood on their property for almost a century
without controversy and is now too fragile to move;
and ii) the affirmative defense of the federal common
law doctrine of laches. At the time of the Fifth Circuit’s
decisions, this Court’s decision in Herrera v. Wyoming
was not announced. See, Herrera v. Wyoming, 587
U.S. ___ (2019). In the instant matter the treaty
between the U.S. and the Caddo Nation remains in
effect. Under Herrera v. Wyoming, the lower courts do
not have the authority to abrogate a treaty with Native
Americans without express Congressional approval.
The questions presented are:
1. Does the Court’s ruling in The American Legion
v. American Humanist Association, afford the owner

ii
of a monument to have standing under 42 U.S.C. § 1983
without having to prove land ownership?
2. Does the Court’s ruling in The American Legion
v. American Humanist Association, afford the owner
of a monument two affirmative defenses: i) the
affirmative defense that the monument has stood for
almost a century without controversy and is now too
fragile to move; and ii) the affirmative defense of the
federal common law doctrine of laches?

3. Does the district court have the authority to
abrogate the Caddo Nation Treaty without the U.S.
Congress stating it in explicit terms under Herrera v.
Wyoming ?

iii
LIST OF PARTIES
Petitioner (Plaintiff-Appellant)
● The Petitioner (plaintiff-appellant) is the Shreveport

Chapter #237 of the United Daughters of the Confederacy (hereinafter “UDC” or Petitioner), which
is non-profit entity under a parent corporation
named the United Daughters of the Confederacy
which is 501 (c)(3) in good standing in the State of
Louisiana; and the petitioner is the owner of the
Caddo Parish Confederate Monument and the owner
of the land underneath said Caddo Parish Confederate Monument, which is located on Shreveport
Block 23 where the Caddo Parish Courthouse sits.
Respondents (Defendant-Appellee)
● The Respondents (defendant-appellee) are the Caddo

Parish Commission, a political subdivision of the
State of Louisiana and the governing body of
Caddo Parish, Louisiana;
● Steven Jackson, President Caddo Parish Commis-

sion and Caddo Parish Commissioner District 3, in
his official capacity,

● Lyndon B. Johnson, Caddo Parish Commissioner,

in his official capacity,

● Matthew Linn, Caddo Parish Commissioner District

4, in his official capacity,
● Jerald Bowman, Caddo Parish Commissioner District

5, in his official capacity,

● Stormy Gage-Watts, Caddo Parish Commissioner

District 7, in her official capacity,

iv
● Louis Johnson, Caddo Parish Commissioner District

12, in his official capacity.

v
CORPORATE DISCLOSURE STATEMENT
Petitioner, Shreveport Chapter #237 of the United
Daughters of the Confederacy (UDC) (a non-profit entity
with its own EIN 72-6034845), who declares that it
has a parent corporation named the Louisiana Division
United Daughters of the Confederacy which is a 501
(c) (3) in good standing in the State of Louisiana; and
no publically traded corporation currently owns 10%
or more of its stock.

vi
LIST OF ALL PROCEEDINGS

Sheveport Chapter #237 of the United Daughters of
the Confederacy v. The Caddo Parish Commission, et al.
United States District Court,
Western District of Louisiana-Shreveport Division
Case No. 17-cv-01346 (RGJ)
Decision Date: July 25, 2018 (App. 4a-30a)

Sheveport Chapter #237 of the United Daughters of
the Confederacy v. The Caddo Parish Commission, et al.
United States Court of Appeals, Fifth Circuit
Case No. 19-30951
Decision Date: March 7, 2019 (1a-3a)
Date of Order Denying Motion for Rehearing:
April 15, 2019 (App. 33a-34a)

vii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
LIST OF PARTIES .................................................... iii
CORPORATE DISCLOSURE STATEMENT ............ v
LIST OF ALL PROCEEDINGS ................................ vi
TABLE OF AUTHORITIES ...................................... ix
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
CONSTITUTIONAL PROVISIONS,
STATUTORY PROVISIONS, AND
INTERNATIONAL TREATIES INVOLVED ...... 2
STATEMENT OF THE CASE .................................... 9
REASONS FOR GRANTING THE PETITION ....... 20
I.

THIS CASE PRESENTS A CONFLICT REGARDING STATUTORY STANDING UNDER 42 U.S.C.
§ 1983 .............................................................. 22

II. THIS CASE PRESENTS A CONFLICT REGARDING WHETHER TWO AFFIRMATIVE DEFENSES
ARE AVAILABLE TO PARTIES UNDER “THE

AMERICAN LEGION V. AMERICAN HUMANIST
ASSOCIATION ” ................................................. 31

viii
TABLE OF CONTENTS – Continued
Page
III. THIS CASE PRESENTS AN OPPORTUNITY FOR
THE COURT TO RESOLVE WHETHER A DISTRICT
COURT HAS THE AUTHORITY TO ABROGATE
THE TERMS OF AN INTERNATIONAL TREATY
WITHOUT CONGRESSIONAL AUTHORITY ........... 37
CONCLUSION.......................................................... 41
APPENDIX TABLE OF CONTENTS
Opinion of the Fifth Circuit
(March 7, 2019) ................................................... 1a
Memorandum Ruling of the District Court of
Louisiana (July 25, 2018) ................................... 4a
Minutes of the Court
(December 11, 2017) ......................................... 31a
Order of the Fifth Circuit Denying Petition for
Rehearing (April 15, 2019) ............................... 33a

ix
TABLE OF AUTHORITIES
TABLE OF AUTHORITIES

Page

CASES

Akins et al. v. Caddo Parish Police Jury,

234 So.2d 203 (La. Ct. App. 1970) .............. 14, 35

Angus McNeil et al., v. Hicks & Howell,

34 La. Ann. 1092 (La. 1882) .............................. 12

Boos v. Barry,

485 U.S. 312 (1988) ........................................... 27

Boudreaux v. Cummings,

167 So.3d 559 (La. 2015) ................................... 35

Christian Knights of Ku Klux Klan Invisible
Empire, Inc. v. Stuart,

934 F.2d 318 (4th Cir. 1991) ............................... 29

Christian Legal Society v. Walker,

453 F.3d 853 (7th Cir. 2006) ............................... 32

City of Shreveport v. Walpole,

22 La. Ann. 526 (La. 1870) ................................ 12

Clark v. Community for Creative
Non-Violence, 468 U.S. 288 (1984) ...................... 28
Cox v. Louisiana,

379 U.S. 536 (1965) ............................................. 28

Elrod v. Burns,

427 U.S. 347 (1976) ........................................... 29

Fried v. Bradley,

219 La. 59, 52 So.2d 247(1950) .......................... 25

Heffron v. International Society of Krisna
Consciousness, Inc., 452 U.S. 640 (1981) ......... 27

x
TABLE OF AUTHORITIES—Continued
Page

Herrera v. Wyoming,

587 U.S. ___ (2019) ...................................... passim

Jefferson Community Health Care Center,
Incorporated v. Jefferson Parish
Government, et al., No. 16-30875,

2017 WL 513888642 (5th Cir. 2017) ................. 15

Johnson v. Bergland,

86 F.2d 993 (4th Cir. 1978) ............................... 29

Kelo v. City of New London,

545 U.S. 469 (2005) ............................................ 33

Legend Night Club v. Miller,

637 F.3d 291 (4th Cir. 2011) ............................... 29

Lovell v. Griffin,

303 U.S. 444 (1938) ........................................... 29

McClesky v. Kemp, 481 U.S. 279,

107 S.Ct. 1756, 95 L.Ed.2d 262 (1987) ............. 24

Minnesota v. Mille Lacs Band of Chippewa
Indians, 526 U.S. 172 (1999)....................... 20, 40
Pacific Frontier v. Pleasant Grove City,

414 F.3d 427 (6th Cir. 2004)................................ 32

Petrella v. Metro-Goldwyn-Mayer, Inc.,

572 U.S. ___ (2014) ............................................ 37

Pickett et al. v. Brown et al.,

18 La. Ann. 560 (La. 1866) ................................ 12

Preminger v. Principi,

422 F.3d 815 (9th Cir. 2005) ............................. 32

xi
TABLE OF AUTHORITIES—Continued
Page

Renton v. Playtime Theatres, Inc.,

475 U.S. 41 (1986) .............................................. 27

Segura v. Frank, Supreme Court No. 93-1271

630 So.2d 725 (La. 1994) ................................... 25

State of Louisiana v. Felton Dejuan Dorsey,

No. 2018-KA-0216 (2011)................................... 24

State of Louisiana v. Ronnie Anderson,

No. 2006-KA-2987 (2008) .................................. 25

The American Legion v. American Humanist
Association, 588 U.S. ___ (2019) ................. passim
United States v. Brooks,

51 U.S. (10 How.) 442 (1850) ..................... passim

United States v. Williams, 504 U.S. 36,

112 S.Ct. 1735, 118 L.Ed.2d 352 (1992) ........... 25

Virginia Pharmacy Bd. v. Virginia Consumer
Council, 425 U.S. 748 (1976) .............................. 27
Ward v. Rock Against Racism,

491 U.S. 781 (1989) ............................................ 27

Wright and Williams v. Mrs. M.D.C. Cane, et al.,

18 La. Ann. 579 (La. 1866) ................................ 12

xii
TABLE OF AUTHORITIES—Continued
Page
CONSTITUTIONAL PROVISIONS
La. Const. Art. 148 (1868) .................................... 7, 13
La. Const. Art. 154 (1868) .................................... 7, 13
U.S. Const. amend. I .......................................... passim
U.S. Const. amend. V ......................................... passim
U.S. Const. amend. XIV ............................... i, 3, 18, 24
STATUTES
28 U.S.C. § 1254(1) ..................................................... 2
38 U.S.C. § 1501(3) ......................................... 5, 14, 23
42 U.S.C. § 1983 .................................................. passim
La. Civ Code Art. 439 (1870) ...................................... 8
La. Civ Code Art. 3437 ......................................... 7, 35
La. Civ Code Art. 3467 (1870) .............................. 8, 13
La. Civ Code Art. 3474 (1870) .............................. 8, 13
La. Civ Code Art. 3477 ............................................... 7
La. Civ Code Art. 3499 (1870) .............................. 9, 13
La. Civ Code Art. 3500 (1870) .............................. 9, 13
La. Rev. Stat. § 41:1323.4 ...................................... 6, 14
La. Rev. Stat. § 48:701 ................................................ 6
JUDICIAL RULES
La. Code Crim. P. art. 841 .......................................... 25

xiii
TABLE OF AUTHORITIES—Continued
Page
INTERNATIONAL TREATY
Treaty with the Caddo
(signed July 1, 1825) ....................................... 3, 5
OTHER AUTHORITIES
John T. Cross,

The Erie Doctrine in Equity,
60 LA.L. Rev. 173 (1999) ................................... 15

1

PETITION FOR A WRIT OF CERTIORARI
The Petitioner, The Shreveport Chapter #237 of
the United Daughters of the Confederacy (“UDC” or
Petitioner), respectfully petition the Court for a writ
of certiorari to review the judgment of the United
States of Appeals for the Fifth Circuit.

OPINIONS BELOW
The opinion of the U.S. Court of Appeals for the
Fifth Circuit is unreported and is reprinted at Appendix,
App.1a-3a. The ruling of the U.S. Court of Appeals
for the Fifth Circuit denying the Petitioner’s petition
for rehearing is unreported and is reprinted at
Appendix, App.33a-34a. The order of the District
Court of the Western District of Louisiana-Shreveport Division granting the motion to dismiss all of the
named Caddo Parish commissioners is unreported and
is reprinted at Appendix, App.31a-32a. The memorandum ruling of the District Court of the Western District
of Louisiana-Shreveport Division granting the motion
for summary judgment is unreported and is reprinted
at Appendix, App.4a-30a.

JURISDICTION
The judgment of the U.S. Court of Appeals for
the Fifth Circuit was entered on March 7, 2019. The

2
order of the U.S. Court of Appeals for the Fifth Circuit
denying petition for rehearing was entered on April
15, 2019. The jurisdiction of this Court is invoked
under 28 U.S.C. § 1254(1).

CONSTITUTIONAL PROVISIONS,
STATUTORY PROVISIONS, AND
INTERNATIONAL TREATIES INVOLVED
● U.S. Const. amend. I

Congress shall make no law respecting an establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of
the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
● U.S. Const. amend. V

No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment
or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the militia,
when in actual service in time of war or public
danger; nor shall any person be subject for the
same offense to be twice put in jeopardy of life or
limb; nor shall be compelled in any criminal case
to be a witness against himself, nor be deprived
of life, liberty, or property, without due process
of law; nor shall private property be taken for
public use without just compensation.

3
● U.S. Const. amend. XIV, § 1

All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state
wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty,
or property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.
● Treaty with the Caddo (signed July 1, 1835),

Introduction provides:
Articles of a treaty made at the Agency-house in
the Caddo nation and State of Louisiana, on the
first day of July in the year of our Lord one
thousand eight hundred und thirty-five, between
Jehiel Brooks, Commissioner on the part of the
United States, and the Chiefs, head men, and
Warriors of the Caddo nation of Indians.

● Treaty with the Caddo (signed July 1, 1835),

Introduction to Articles supplementary to the
said treaty provides:
Articles supplementary to the treaty made at the
agency house in the Caddo nation and State of
Louisiana on the first day of July, one thousand
eight hundred and thirty-five between Jehiel
Brooks Commissioner on the part of the United
States, and the Chiefs head men and Warriors of
the Caddo nation of Indians concluded at the same
place, and on the same day between the said
Commissioner on the part of the United States

4
and the Chiefs Head men and warriors of the said
nation of Indians, to wit:
WHEREAS the said nation of Indians did in the
year one thousand eight hundred and one, give
to one François Grappe and to his three sons then
born and still living, named Jacques, Dominique
and Belthazar, for reasons stated at the time and
repeated in a memorial which the said nation
addressed to the President of the United States in
the month of January last, one league of land to
each, in accordance with the Spanish custom of
granting land to individuals. That the chiefs and
head men, with the knowledge and approbation of
the whole Caddo people did go with the said
François Grappe, accompanied by a number of
white men, who were invited by the said chiefs
and head men to be present as witnesses, before
the Spanish authority at Natchitoches, and then
and there did declare their wishes touching the
said donation of land to the said Grappe and his
three sons, and did request the same to be
written out in form and ratified and confirmed by
the proper authorities agreeably to law.
And WHEREAS Larkin Edwards has resided for
many years to the present time in the Caddo
Nation—was a long time their true and faithful
interpreter, and though poor he has never sent
the Red man away from his door hungry. He is
now old and unable to support himself by manual
labor, and since his employment as their interpreter has ceased possesses no adequate means
by which to live: Now therefore—(underline added
for emphasis)

5
● Treaty with the Caddo (signed July 1, 1835),

Articles supplementary to the said treaty article II
provides:
And it is further agreed that there shall be reserved
to Larkin Edwards his heirs and assigns for ever
one section of land to be selected out of the lands
ceded to the United States by the said nation of
Indians as expressed in the treaty to which this
article is supplementary in any part thereof not
otherwise appropriated by the provisions contained
in these supplementary articles. (underline added
for emphasis)
● 38 U.S.C. § 1501(3)

(3) The term “Civil War veteran” includes a person
who served in the military or naval forces of
the Confederate States of America during the
Civil War, and the term “active military or naval
service” includes active service in those forces.
● 42 U.S.C. § 1983

Every person who, under color of any statute,
ordinances, regulations, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizens of
the United States or other person within the
jurisdiction thereof to the deprivation of any rights,
privileges, or immunities secured by the Constitution and laws, shall be liable to the party injured
in an action at law, suit in equity, or other
proper proceeding for redress, except that in
any action brought against a judicial officer for
an act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted
unless a declaratory decree was violated or declar-

6
atory relief was unavailable. For the purposes of
this section, any Act of Congress applicable
exclusively to the District of Columbia shall be
considered to be a statute of the District of
Columbia.
● LA Rev Stat § 41:1323.4 (current) (Sales, transfers

or exchanges of public property by cities, towns,
villages and police juries prior to twelve o’clock,
noon, July 28, 1948)
All sales, transfers or exchanges of public property
made by cities, towns, villages and police juries
made prior to twelve o’clock, noon, July 28, 1948
are hereby validated, ratified and confirmed unto
the original purchasers or transferees and their
successors in title, notwithstanding any informalities provided there was a valid consideration therefor.
Added by Acts 1962, No. 205, § 1.
● LA Rev Stat § 48:701(current)

(Revocation of dedication; reversion of property)
The parish governing authorities and municipal
corporations of the state, except the parish of
Orleans, may revoke and set aside the dedication
of all roads, streets, and alleyways laid out and
dedicated to public use within the respective
limits, when the roads, streets, and alleyways
have been abandoned or are no longer needed for
public purposes.
Upon such revocation, all of the soil covered by
and embraced in the roads, streets, or alleyways
up to the center line thereof, shall revert to the

7
then present owner or owners of the land contiguous thereto.
Nothing in this Section shall be construed as
repealing any of the provisions of special statutes
or charters of incorporated municipalities granting the right to close or alter roads or streets.
● LA Civ Code Art. 3437 (current)

(Precarious possession)
The exercise of possession over a thing with the
permission of or on behalf of the owner or
possessor is precarious possession.

● LA Civ Code Art. 3477 (current)

(Precarious possessor; inability to prescribe)
Acquisitive prescription does not run in favor of
a precarious possessor or his universal successor.
● Constitution of the State of Louisiana

Art. 148 (1868)
The ordinance of succession of the State of
Louisiana, passed twenty-sixth January, eighteen
hundred and sixty-one is hereby declared to be
null and void. The Constitution adopted in eighteen
hundred and sixty-four, and all previous constitutions in the State of Louisiana, are declared to
be superseded by this Constitution.

● Constitution of the State of Louisiana

Art. 154 (1868)
In order to establish a civil government as required by act of Congress, passed March twentythird, eighteen hundred and sixty-seven, as election shall be held at the same time and place at
which the Constitution is submitted for ratification, for all State, the General Assembly and for

8
the Congressional Representatives, at which election the electors who are qualified under the
Reconstruction acts of Congress shall vote, and
none others: Provided; That any elector shall be
eligible to any office under any municipal corporation in this State.
● LA Civ Code Art. 439 (1870)

The attorneys in fact or officers thus appointed
by corporation for the direction and care of the
affairs have their respective duties pointed out
by their nomination and exercise them accordingly to the general regulations and particular
statutes of the corporation which they are the
heads.
These attorneys or officers by contracting, bind
the corporations to which they belong in such
things as do not exceed the limits of the administration which is intrusted to them; their act is
supposed to be the act of the corporation.
If the powers of such attorney or officers have
been expressly determined, they are regulated in
the same manner as those of other agents.
● LA Civ Code Art. 3467 (1870)

The time required for prescription is reckoned by
days, and not by hours; it is only acquired after
the last day allowed by law has elapsed.
● LA Civ Code Art. 3474 (1870)

Immovables are prescribed for by thirty years
without any title on the part of the possessor, or
whether he be in good faith or not.

9
● LA Civ Code Art. 3499 (1870)

The ownership of immovable is prescribed for
thirty years without any need of title or possession
in good faith.
● LA Civ Code Art. 3500 (1870)

The possession on which this prescription is
founded must be continuous and uninterrupted
during all the time; it must be public and unequivocal, and under the title of owner.

STATEMENT OF THE CASE
In summary, this case involves the Petitioner
fighting the removal of its Confederate Monument
where evidence exists that it owns the property underneath it. This case clarifies whether the Petitioner has
to prove land ownership in order to assert standing
under 42 U.S.C. § 1983. This case further clarifies if
Petitioner may assert two affirmative defenses: 1) The
affirmative defense that the said monument has stood
without controversy for over one hundred years and
is now too fragile to move; and 2) the affirmative
defense of the federal common law doctrine of laches
without the State of Louisiana either allowing or
barring said defenses. This case further involves the
Petitioner asserting its standing under the Caddo
Nation Treaty and whether the lower courts have the
authority to abrogated said treaty without the U.S.
Congress terminating it. UDC is asking for a review
of the Fifth Circuit decision.

10
First, this case presents an opportunities for the
Court to question a decision of the United States
court of appeals which is in direct conflict with the
decision of the U.S. Supreme Court on a similar important matter such as the case involving a group wanting
the removal of a WWI monument due a perceived
establishment clause violation. See, The American
Legion v. American Humanist Association, 588 U.S.
___ (2019). The UDC owns both the Confederate
Monument and land underneath it. The said monument
sits in front of the Caddo Parish Courthouse for
almost one hundred years without controversy. In
2018, the Respondent ordered the removal of it.
Second, in light of the Court’s recent The American
Legion v. American Humanist Association, this case
presents further opportunities for the Court to address
a novel issue regarding an issue of standing under 42
U.S.C. § 1983 and whether the UDC can assert two
affirmative defenses: 1) that the Confederate Monument
has stood on their property for almost a century without
controversy and is now too fragile to move; and 2) the
common law doctrine of laches. In order to remove
the Confederate Monument, the Respondent has to
demolish it because the construction material have
the monument has deteriorated for being outside for
over a century.
Third, this case further presents an opportunity
to question decision of the United States court of
appeals which is in direct conflict with the decision
of the U.S. Supreme Court on a similar matter such
as the case involving the termination of a treaty with
Native Americans without a congressional decision to
do so. See, Herrera v. Wyoming, 587 U.S. ___ (2019).

11
The instant matter involves a combination of an order
of removal of a Confederate Monument in front of a
courthouse and the provisions of the Caddo Nation
Treaty concerning property rights of the parties: 1)
Petitioner UDC; 2) the legal heirs of the original
owner; and 3) The Caddo Nation itself. Prior to this
lawsuit, the Caddo Nation Treaty had not been a subject
of litigation since 1850. The U.S. Congress has not
terminated the Caddo Nation Treaty but the district
court did not consider the said treaty’s legal existence
in its decision in favor of the respondent. Since evidence exists pointing to the actual said treaty
remaining in effect, Shreveport Block 23 is the last
piece of ancestral land of the Caddo Nation in which
it has maintained a property interest.1
As an aide the Petitioner presents a summary of
the facts concerning the contested land underneath
the Confederate Monument.
(a) The contested land originated from an aboriginal title held by the Caddo Nation to its ancestral
lands. On July 1, 1835, the Caddo Indians signed
a treaty with the United States which granted
Larkin Edwards a floating reservation of 640 acres;
(b) On January 26, 1836, the United States ratifies said treaty; See, United States v. Brooks, 51
U.S. 442 (1850);
(c) On February 3, 1836, Larkin Edwards allegedly sold his interest to the Shreve Town Company;
1 The full text of said treaty is in 18-30951ROA. 1096-ROA.
1202 (5th Cir.).

12
(d) In 1837, the Shreve Town Company “laid off
the town of Shreveport . . . made there of the grant
to Larkin Edwards; See, City of Shreveport v.
Walpole, 22 La. Ann. 526 at 528 (La. 1870);
(e) On March 14, 1840, Larkin Edwards signed a
document which declared that the sale of his
floating reservation to the Shreve Town Company as “null and void and as though the same
had never been passed . . . ”;
(f) Sometime in 1841, Larkin Edwards died. His
six (6) heirs voluntarily partitioned his property
prior to opening his succession; but later a Louisiana district court declared those partitions null.
See, Wright and Williams v. Mrs. M.D.C. Cane,
et al., 18 La. Ann. 579 (La. 1866);
(g) On December 14, 1841, the Shreve Town Company dissolved and it sold many lots within the
incorporated limits except for Shreveport Block
23. See, Angus McNeil et al., v. Hicks & Howell,
34 La. Ann. 1090 at 1092 (La. 1882); and Pickett
et al. v. Brown et al., 18 La. Ann. 560 (La. 1866);
(h) The Caddo Parish Police Jury minutes states,
“From inquiry your Committee have been led to
believe that the title vested in the Parish of
Caddo to the lot of ground known as the public
square [i.e. Shreveport Block 23] is of too precarious and uncertain a character to justify the
erection of any public building there.”2 By 1860,
the Respondent constructed a courthouse on said
lot. In 1868, the State of Louisiana declares the
2 18-30951 ROA. 995-ROA. 999; and 18-30951 ROA. 1016-ROA.
1052 (5th Cir.).

13
ordinance of succession as illegal and it establishes a civil government under Reconstruction.3
Constitution of the State of Louisiana Art. 148
(1868), provides:
The ordinance of succession of the State of Louisiana, passed twenty-sixth January, eighteen
hundred and sixty-one is hereby declared to
be null and void. The Constitution adopted in
eighteen hundred and sixty-four, and all previous constitutions in the State of Louisiana,
are declared to be superseded by this Constitution.
(i) By 1877, home-rule returned to the State of
Louisiana;
(j) On June 18, 1903, the Petitioner asked for
monies and land for the erection of the Confederate Monument and the Caddo Parish Police
Jury “reserved for that purpose” the small plot of
land where the Confederate Monument currently stands to the UDC;
(k) Sometime in 1905, thePpetitioner enclosed
the complete Confederate Monument with a fence
and sometime in 1935, the UDC acquired the
ownership of the land underneath the Confederate Monument via acquisitive prescription
because thirty (30) years have passed;4

3 Constitution of the State of Louisiana (1868) Art. 148 and Art.
154 respectively.
4 LA Civ Code Art. 3467 (1870); LA Civ Code Art. 3474 (1870));
LA Civ Code Art. 3499 (1870); and LA Civ Code Art. 3500 (1870).

14
(l) In May, 1954, Shreveport real estate broker Ike
Lowenthal offered to secure a purchase of Shreveport Block 23 (on behalf of actress Zsa Zsa Gabor’s
second ex-husband Conrad Hilton) but no records
proving ownership existed which brought negotiations to an end;
(m) In 1958, the U.S. government recognized Confederate veterans as United States war veterans.
See, 38 U.S.C. § 1501;
(n) In 1962, the Louisiana Legislature passed LA
R.S. 41:1323.4 (sales, transfers or exchange of
public property by cities, towns, villages and
police juries prior to twelve o’clock, noon, July
28, 1948). This law ratified the transfer of the land
underneath the Confederate Monument to the
UDC. Thus as a matter of law, the UDC owns
the land based on LA R.S. 41:1323.4 too;
(o) In 1970, the Second Circuit Court of Appeals
for Louisiana failed to find that Caddo Parish
owned Shreveport Block 23. See, Akins et al. v.
Caddo Parish Police Jury, 234 So.2d 203;
(p) In 2002, United Title of Louisiana, Inc. (“United
Title”) which found no written conveyances for
neither the UDC nor Respondent to the Shreveport Block 23;
(q) On October 19, 2017, Respondent passed Resolution No. 69 which ordered the petitioner to
remove the Confederate Monument from the front
of the Caddo Parish Courthouse on Shreveport
Block 23. The UDC filed its lawsuit against the
Caddo Parish Commission and the seven (7)
commissioners, in their official capacity, who voted

15
in favor of Resolution No 69. See, Jefferson

Community Health Care Center, Incorporated v.
Jefferson Parish Government, et al., No. 16-30875,
2017 WL 513888642 (5th Cir. 2017);

(r) On December 11, 2017, the district court held a
hearing on the UDC’s Motion for Preliminary
Injunction. Prior to the hearing the district court
ruled in favor of dismissing the seven (7) commissioners without addressing the U.S. Fifth
Circuit legal precedent which allowed for a lawsuit
against the said commissioners in their official
capacity. See, Jefferson Community Health Care
Center, Incorporated v. Jefferson Parish Government, et al., No. 16-30875, 2017 WL 513888642,
(5th Cir. 2017);
(s) On January 26, 2018, the district court denied
the UDC’s Motion for Preliminary Injunction
which rejected the UDC’s affirmative defense of
laches5;
5 The district court wrote the following:
Finally, UDC argues that the common law doctrine
of laches should be applied in this case. Lashes is an
affirmative defense recognized in federal law, as well
as in common law. However, the underlying issue in
this case is of Louisiana law—the ownership of the
plot where the Confederate Monument sits. UDC has
cited the Court to no authority which would support
the idea that a Louisiana court applying Louisiana
law would allow it to use laches affirmatively to prove
ownership of an immovable. See generally John T.
Cross, The Erie Doctrine in Equity, 60 LA.L. Rev.
173, 232 n. 264 (1999) (“A federal court adjudicating
a state-law claim makes an initial reference to state
law to determine if laches and unclean hands are

16
(t) On April 19, 2018, UDC signed a quitclaim
deed with four (4) heirs of Larkin Edwards which
confers their ownership interest to the UDC.
The Petitioner is a non-profit named The Shreveport Chapter #237 of the United Daughters of the
Confederacy or UDC. It has been responsible for the
upkeep of the Confederate Monument and property. In
1903, the UDC requested that the Caddo Parish
Police Jury provide monies and a plot of land for purposes of erecting the Confederate Monument in order
to honor the Confederate soldiers who died during the
American Civil War.6 Due to the fact that many
‘complete’ defenses that may be used against both
legal and equitable claims. If the state law treats it
as a complete bar, and the federal standard for
laches or unclean hands is the same as the state, a
federal court that ignored the defense would in effect
be creating a substantive right.”) Allowing UDC to
affirmatively apply a common law defense in this case
would be inconsistent with the law on acquisitive
prescription discussed, supra. In other words, allowing
UDC to affirmatively use the defense of laches against
the Commission [i.e. respondent] would, in effect, result
in a finding that UDC had obtained title or ownership to the plot where the Confederate Monument sits
by acquisitive prescription. See 18-30951 R.O.A. 655R.O.A. 656 (5th Cir.).
6 The pertinent of the Caddo Parish Police Jury minutes of the
meeting on June 18, 1903 reads as the following:
The rules were suspended and Mr. W.H. Wise on behalf
of the Daughters of the Confederacy made an earnest
appeal for an appropriation of $1000 for the Confederate
Monument, at the same time requesting that the monument association be given the front plat or portion of
court house square as a site for the monument.
Moved by J.S. Young that the $1000.00 be allowed and

17
Confederate soldiers remained missing or remained
buried in unmarked graves, the Confederate Monument
provided a place for their families to honor their
memories. Although there is controversy concerning
the racial make-up of the Confederate military, history
shows that Native Americans, Mexican-Americans,
Native Hawaiians, Jewish Americans, and Irish Catholic immigrants served alongside southern whites within
the ranks of the Confederate service.7 The Confederate
Monument honors all Confederate service members
regardless of race, creed, or national origin. For nearly
a century no one disputed that the UDC owned the
Confederate Monument and the land underneath it
without controversy. In 2002, the Respondent paid
for a title opinion which did not exclude the UDC as
a landowner. Until 2018, the official website for the
Respondent stated that the UDC owned the land
underneath the Confederate Monument.8 On October
19, 2017, the Respondent passed Resolution No. 69
which ordered the UDC to remove its Confederate
the front plot of court house square be reserved for that
purpose, which motion was unanimously adapted.
(underline added)
7 Cherokee Chief Stand Waties (1806-71), a principal chief of
the Cherokee Nation, attained a general’s rank in the Confederate
States Army during the American Civil War.
8 Until 2018, the official website of Caddo Parish Commission
stated that, “On the Texas Street side of the Courthouse Square
is the Forty-six Confederate Veterans Reunion Monument. This
monument commemorates the soldiers who lost their lives
during the Civil War. A very interesting fact about the land on
which this monument sits is that it does not belong to the Commission but to the Daughters of the Confederacy. However, this
small piece of land is surrounded by the Courthouse Square.”

18
Monument from Courthouse Square. Within the body
of said Resolution No. 69, it alleges for political reasons that the Confederate Monument is “an object of
division and a painful reminder of racial inequities
locally and nationally” and “citizens would be better
served if the monument was placed in a museum
. . . instead of the Courthouse where justice is to be
determined fairly and impartially.” The UDC filed its
federal lawsuit claiming a deprivation of its First,
Fifth, and Fourteenth rights under the U.S. Constitution pursuant to 42 U.S.C. § 1983 seeking a permanent
injunction preventing the removal of the Confederate
Monument. The UDC found that the Respondent’s
decision to order the removal of the Confederate
Monument in order to satisfy the opposing views of
the respondent is not legitimately related to any government interest much less narrowly tailored to meet
it.
Afterwards, the individually named Respondents
filed a Motion to Dismiss the individual commissioners
on November 15, 2017. On December 11, 2017, the
district court heard the UDC’s Motion for Preliminary
Injunction. The district court granted the individual
commissioners’ Motion to Dismiss.9 The district court
denied the UDC’s Motion for Preliminary Injunction
on January 26, 2018. On May 31, 2018, the Respondent
filed its Motion for Summary Judgment. On July 18,
2018, the district court heard oral arguments on it.
On July 25, 2018, the district court granted the Res9 The district court concluded that, “In this case, the dismissal
of the Commissioners streamlines the litigation and does not
prejudice Plaintiff in the slightest to eliminate the Commissioners in their official capacities as defendants.” See App.32a.

19
pondent’s Motion for Summary Judgment. The UDC
filed its Notice of Appeal to the U.S. fifth Circuit on
August 17, 2018. On March 7, 2019, the Fifth Circuit
affirmed the district court ruling. On April 15, 2019,
the Fifth Circuit denied the Petitioner’s Petition for
Rehearing.
At the time of the proceedings in the lower courts,
the Court had decided The American Legion v. American Humanist Association where a war memorial had
stood for almost one hundred years without controversy. See, The American Legion v. American Humanist
Association, 588 U.S. ___ (2019). Based on the Court’s
ruling acknowledging the non-controversial history as
evidence in American Humanist Association, the UDC
avers it has standing without proving ownership of
the land underneath the said monument under 42
U.S.C. § 1983 and two affirmative defenses to removal
of the Confederate Monument: i) The affirmative
defense that the Confederate Monument has stood on
their property for almost a century without controversy
and is now too fragile to move; and ii) the affirmative
defense that the doctrine of laches can be asserted
even where Louisiana law neither recognize it nor
bars it.
Louisiana does not follow the common law tradition. Louisiana’s civil law system does not have a
civil law counterpart for every specific common law
doctrine. The Louisiana civil law system does not have
a civil law counterpart for laches.
At the time of the lower courts’ decisions, the
U.S. Supreme Court’s decision in Herrera v. Wyoming
had not been announced which would have precluded
the lower courts from aborgating the Caddo Nation

20
Treaty. Under Herrera v. Wyoming, the Court states
that Congress “must clearly express” an intention to
end a treaty with a Native American tribe in order
for the treaty’s rights to expire. Herrera v. Wyoming,
587 U.S. ___ (2019) and Minnesota v. Mille Lacs Band
of Chippewa Indians, 526 U.S. 172 (1999). The title
of the land known as Shreveport Block 23 originated
from said treaty and the UDC has standing under
United States v. Brooks to assert a defense of “ejectment” under it. Larkin Edwards’ heirs and the Caddo
Nation were not notified of the taking of their property interests by the Respondents. The district court’s
ruling abrogated the said treaty without authorization
from the U.S. Congress. On appeal the U.S. Fifth
Circuit did not address the abrogation of said treaty.

REASONS FOR GRANTING THE PETITION
This Court should grant the petition to clarify
whether Petitioner as owner of monuments has to be
the owners of the land underneath the said monument
too in order to have standing under 42 U.S.C. § 1983.
This Court should grant the petition in order to clarify
whether a party is allowed affirmative defense of
laches when state law does not expressly permit it or
bar it. This Court should further grant the petition in
order to address whether or not a district court has
the authority to abrogate the Caddo Nation Treaty.
First, this case presents an issue in direct conflict
with the Court regarding statutory standing under
42 U.S.C. § 1983. This case presents opportunities for
the Court to question a decision of the lower courts

21
which is in direct conflict with the U.S. Supreme Court
on a similar important matter such as the case involving a group wanting the removal of a WWI monument
due a perceived establishment clause violation. Under
The American Legion v. American Humanist Association the lower courts would be compelled not to
analyze the non-controversial historical association
of the said monument with the site. See, The American Legion v. American Humanist Association, 588
U.S. ___ (2019). The Confederate Monument did not
cause controversy for almost 100 years. The UDC
registered it on the National Historic Registry in 2014.
Second, under The American Legion v. American
Humanist Association, this case presents further opportunities regarding whether the petitioner can assert
two affirmative defenses under 42 U.S.C. § 1983. Does
the new legal precedence found in The American
Legion v. American Humanist Association afford the
petitioner’s rights to assert two affirmative defenses:
i) that the Confederate Monument has stood on their
property for almost a century without controversy
and is now too fragile to move; and ii) the common
law doctrine of laches where the State of Louisiana
neither recognizes it nor bars it?

Third, this case presents an opportunity for the
Court to clarify whether a district court has the
authority to abrogate the terms of the Caddo Nation
Treaty without the U.S. Congress first terminating it.
This case further presents an opportunity to question a
decision of the United States court of appeals which
is in direct conflict with the decision of the U.S.
Supreme Court on a similar matter such as the case
involving the termination of a treaty with Native

22
Americans without a congressional decision to do so
under Herrera v. Wyoming. Prior to this lawsuit, the
Caddo Nation Treaty has not been a subject of litigation
since 1850. The U.S. Congress has not terminated the
Caddo Nation Treaty. The district court did not consider
the said treaty’s legal existence without the Respondent
notifying all of the interested parties such as Larkin
Edwards’ heirs and the Caddo Nation of its taking by
Respondent. Shreveport Block 23 is the last piece of
ancestral land of the Caddo Nation in which it has a
property interest.
I.

THIS CASE PRESENTS A CONFLICT REGARDING
STATUTORY STANDING UNDER 42 U.S.C. § 1983.

The lawsuit involves Petitioner’s claims pursuant
to 42 U.S.C. § 1983 which allows a person whose constitutional rights have been deprived to bring an
action to redress the constitutional deprivation. The
UDC owns the Confederate Monument itself and for
almost a century it stood without controversy. Historically Shreveport Block 23 was also the site of the
headquarters of the Confederate Army’s The Army of
the Trans-Mississippi under the Department of the
Trans-Mississippi during the American Civil War. The
last major Confederate command to exist before it
dissolved on May 26, 1865.
The Confederate Monument stands as a memorial
to those Confederate service personnel who died during
the American Civil War. Many families with dead
Confederate soldiers either could not travel to his grave
or no known grave existed for him. The Confederate
Monument has four busts of Confederate generals on
it, a statue of a lone Confederate enlisted man on the
top, and the Greek Goddess Clio pointing to an

23
inscription. Like the Confederate Monument located
in Arlington National Cemetery which depicts whites
and African-Americans, the said monument honors
all Confederate soldiers without distinction for either
combat or non-combat roles, race, creed, or national
origin. During the Eisenhower Administration, the U.S.
Congress passed 38 U.S.C. § 1501(3) which classifies
Confederate soldiers and sailors as U.S. war veterans.
Thus, the Caddo Parish Confederate Monument honors
U.S. war veterans.
In honor of the centennial of the U.S. Civil War,
the Caddo Parish Police Jury allowed a Confederate
Battle flag to fly next to the said Confederate Monument. The Confederate Battle flag flew until the Caddo
Parish Commission ordered its removal in 2011. The
Petitioner did not resist the chain-saw wielding Caddo
Parish employee who cut down the flag pole.
In 2017, the Respondent passed Resolution No. 69
which ordered the UDC to remove its Confederate
Monument. The said Resolution No. 69 states in part
the following:
“WHEREAS, the Confederate Monument
currently on the lawn of the Caddo Parish
Courthouse serves as an object of division
and a painful reminder of racial inequities
locally and nationally;
WHEREAS, although historically significant,
citizens would be better served if the monument was placed in a museum or at another
site dedicated to memorials, instead of the
Courthouse where justice is to be administered fairly and impartially;

24
WHEREAS, the Caddo Parish Commission
wishes to end the constant debate on the
placement of this monument.
NOW, THEREFORE, BE IT RESOLVED by
the Caddo Parish Commission in due, regular
and legal session convened, authorizes the
Parish Administrator, assisted by the Parish
Legal Staff, to pursue any and all legal means
to remove the monument from Caddo Parish
Courthouse Square.”
In response, the UDC filed its federal lawsuit
claiming a deprivation of its First, Fifth, and Fourteenth
rights under the U.S. Constitution. Prior to Resolution
No. 69, the Louisiana Supreme Court considered
whether or not the presence of the Confederate Monument (referred too as a “Confederate flag memorial”)
had an impact on the trials of African-Americans in
Caddo Parish. In 2011, the Louisiana Supreme Court
did not find that the said Confederate Monument
“outside the courthouse in Caddo Parish injects an
arbitrary factor-race-into the capital sentencing decision” of defendant Felton Dejuan Dorsey. See, State of
Louisiana v. Felton Dejuan Dorsey, No. 2018-KA-0216,
Decided: September 07, 2011.10 In the more recent
10 In its Dorsey ruling, the Louisiana Supreme Court addressed
the issue of “the presence of a confederate flag memorial outside
the courthouse in [Caddo Parish] and wrote the following:
“In this assignment of error, defendant contends the
presence of a confederate flag memorial outside of the
courthouse in Caddo Parish injects an arbitrary
factor-race-into the capital sentencing decision. Defendant argues this Court should, as a matter of greater
protection afforded by state law, reject the burden of
proof in McClesky v. Kemp, which requires a defend-

25

Anderson case, a Louisiana appellate court denied

the defendant’s supervisory writs review of a decision
by a district court judge in Clinton, Louisiana. See,
In re: Ronnie Anderson, applying for supervisory writs,
20th Judicial District Court, Parish of East Feliciana,
No. 18-CR-685, writs denied; from defendant Ronnie
Anderson in State of Louisiana v. Ronnie Anderson;
Clinton, Parish of East Feliciana; 20th Judicial District
Court; No. 2019 KW 0529. In Anderson the district
ant to establish specific evidence of discriminatory
intent beyond discriminatory effect before being entitled
to relief. 481 U.S. 279, 107 S.Ct. 1756, 95 L.Ed.2d 262
(1987). Defendant admits he cannot prove the confederate flag memorial was placed outside the courthouse
with the intent to interpose racial considerations, to
both intimidate prospective black jurors and prime
white jurors to impose the death penalty, into his
specific case. However, he argues it was placed there
to remind all persons who approach the courthouse
of an era when lynching and enslavement of blacks
was permitted by law . . . Although this Court can
likely take judicial notice that the display of a confederate flag would be offensive to some, defendant did
not raise an objection on this or any other related
basis in the court below and is raising these concerns
for the first time on appeal . . . In Segura v. Frank,
this Court noted, “[t]he general rule is that appellate
courts will not consider issues raised for the first time
on appeal.” 93-1271, p. 15 (La.1/14/94); 630 So.2d
714, 725 (citing Fried v. Bradley, 219 La. 59, 87, 52
So.2d 247, 257 (1950) (cases cited therein)) . . . Since
defendant failed to raise an objection regarding the
confederate flag memorial in the district court, we
find his claims regarding endemic racism are not
properly before the Court. La. C. Cr. P. art. 841; Segura,
93-1271 at 15, 630 So.2d at 725; cf. United States v.
Williams, 504 U.S. 36, 41, 112 S.Ct. 1735, 1738, 118
L.Ed.2d 352 (1992).”

26
judge rejected a motion by a black defendant Ronnie
Anderson to move a case because he worried that the
presence of a Confederate statue in front of the
courthouse inhibits his ability to get a fair trial. Id.
Besides the state court findings that Confederate
Monuments in front of courthouse do not inject an
unfair racial animus into proceedings with AfricanAmerican defendants, this Court should grant the
petition for both clarifying whether owners of monuments have to be the owners of the land underneath
the said monument too in order to have standing pursuant to 42 U.S.C. § 1983 when challenging a governmental body’s order for removal of said monument
for political reasons.
42 U.S.C. § 1983 allows a person whose constitutional rights have been deprived to bring an action to
redress the constitutional deprivation without making
a distinction that the complainant has to own all of
the property that is the subject of a lawsuit pursuant
to the said federal statute. There is no clear ownership of Shreveport Block 23 because the original
owner died without signing any conveyance document
for it. The original owner Larkin Edwards left seven
(7) heirs and none of them have opened his estate for
purposes of succession. Nothing in 42 U.S.C. § 1983
states that a complainant has to own all of the property
involved in a lawsuit pursuant to said statute. Had
Congress wanted to make such distinction it could
have easily amended the law. It has not done so.
Due to the fact that the district court did not
find that the UDC produced sufficient evidence that
it owned the land underneath the Confederate Monument, the lower courts did not consider that the

27
respondent restricted the UDC’s First Amendment
rights on its private property. Thus, the lower courts
did not address the Respondent’s decision was based
on content of its speech in violation of the First
Amendment. The lower courts did not conduct a principal inquiry into determining content-neutrality in
this speech case, and into time, place, or manner
cases as to whether the respondent had adopted a
regulation of speech because of its disagreement with
the message it conveys or the government body’s purpose. See, Community of Creative Non-Violence, supra,
at 468 U.S. 295. The government’s purpose of the Respondent is the controlling consideration. A regulation
that serves purposes unrelated to the content of expression is deemed neutral, even if it has an incidental
effect on some speakers or messages, but not others.
See, Renton v. Playtime Theatres, Inc., 475 U.S. 41, 475
U.S. 47-48 (1986). Based on the district court’s decision
the Respondent did not have to prove that its government regulations of expressive activity is contentneutral so long as it is “justified without reference to
the content of the regulated.” See, Community of
Creative Non-Violence, supra, at 468 U.S. 293 (quotation marks added); Heffron v. International Society
of Krisna Consciousness, Inc., 452 U.S. 640 (1981)
quoting Virginia Pharmacy Bd. v. Virginia Consumer
Council, 425 U.S. 748, at 771 (1976); see Boos v. Barry,
485 U.S. 312, 320-321 (1988) (opinion of O’Connor,
J.). Ward v. Rock Against Racism, 491, 491 U.S. 781,
792 (1989). Based on the wording of Resolution No.
69 the Respondent’s decision stems from an unsupported belief that the said monument represents
slavery. The lower courts never analyzed this issue
and it did not require the Respondent to present the

28
evidence of a rational basis for resolution No. 69. The
lower courts further did not require the Respondent
to show a balance between the ability to have the
place of the message be part of the message and legitimate government concerns such as maintaining order
or protecting the community against violence. See,
Clark v. Community for Creative Non-Violence, 468
U.S. 288, 294 (1984). The lower courts never analyzed
said Resolution No. 69 in order to determine whether
it contains vague, overly broad, and ambiguous language which leave no narrowly tailoring under the
First Amendment. By excluding the UDC’s standing
under 42 U.S.C. § 1983 the district court ignored the
lack of evidence whereby the Respondent has provided no rational basis to support its argument. The
lower courts did not address the evidence presented
by the UDC of interviews of former slaves from the
area for none claimed that the said monument represented slavery.11
By denying the Petitioner’s standing under 42
U.S.C. § 1983, the district court did not address the
fact that a large number of vocal protestors attended
meetings where the respondent held open meetings
concerning the removal of said monument in 2017.
There is no place for a “hecklers’ veto” under the First
Amendment. The “heckler’s veto” has been rejected
by the Supreme Court of the United States as a legitimate basis for infringing upon First Amendment.
See, Cox v. Louisiana, 379 U.S. 536 (1965). The Fourth
Circuit recognizes that government officials may restrict
expressive activity because of a threat of violence but
11 See, 19-30951 ROA. 1418-ROA. 1422 (5th Cir.) (i.e. interview
of former slaves).

29
only if they have a reasonable belief that violence is
imminent by those whose expression they seek to restrict, See, Christian Knights of Ku Klux Klan Invisible
Empire, Inc. v. Stuart, 934 F.2d 318 (4th Cir. 1991)
(heckler’s veto not involved because real “threat” of
violence was from Klan not spectators). Rather any
real threat comes from the opponents of the said monument as evidenced by an act of vandalism committed
on July 7, 2016. For the hecklers and vandals have
shut down free speech with which they disagree by
manufacturing threats to public safety.
By denying the Petitioner’s standing under 42
U.S.C. § 1983, the district court ignored the evidence
that the elimination of prior restraints was a “leading
purpose” in the adoption of the First Amendment. See,
Lovell v. Griffin, 303 U.S. 444, at 451-451 (1938). The
Respondent’s decision to order the removal of said
monument without any announced procedural safeguards being in place to allow the Petitioner to contest
the removal of it constitutes prior restraint.
“The loss of First Amendment freedoms, for even a
minimal period of time, unquestionably constitutes
irreparable injury.” See, Elrod v. Burns, 427 U.S. 347,
373 (1976). The violation of First Amendment rights
cannot be fully compensated later by damages. See,
e.g. Legend Night Club v. Miller, 637 F.3d 291, 302 (4th
Cir. 2011). In the Fourth Circuit, “[v]iolations of [F]irst
[A]mendment rights constitute per se irreparable injury.” See, Johnson v. Bergland, 86 F.2d 993 (4th Cir.
1978).
By denying the Petitioner’s standing under 42
U.S.C. § 1983, the lower courts did not consider evidence
that the said Resolution No. 69 did not permit the

30
UDC to appeal the respondent’s arbitrary and capricious decision as to be unreasonable and oppressive that
it constituted a violation of the UDC’s rights to due
process and equal protection under the Fourteenth
Amendment. And by denying the Petitioner’s standing
under 42 U.S.C. § 1983, the lower courts did not
consider that the said Resolution No. 69 did not permit
the UDC to receive just compensation for the taking
of its private property in violation of the Fifth
Amendment. No other courts seem to have addressed
this issue of having to prove complete ownership in
order to have standing under 42 U.S.C. § 1983. For
this reason the Court should resolve this important
issue of statutory standing where the Petitioner is
the conclusive owner of the Confederate Monument
itself.
Under The American Legion v. American Humanist Association, the Court can and should conclusively
resolve the question whether standing pursuant to
42 U.S.C. § 1983 relies on whether or not a district
court can deny the owner of the said monument
standing when it did not present sufficient evidence
that it owned the land underneath the said monument.
See, The American Legion v. American Humanist
Association, 588 U.S. ___ (2019). In The American
Legion v. American Humanist Association, the Court
did not find that the American Legion had to prove
that it owned the land underneath that monument in
order to have standing pursuant to 42 U.S.C. § 1983.
In the instant matter the lower court rulings seem to
depart from the finding in The American Legion v.
American Humanist Association because it improperly
determined that the petitioner did not have standing

31
pursuant to 42 U.S.C. § 1983. This Court should resolve
this important issue of statutory standing.
II.

THIS CASE PRESENTS A CONFLICT REGARDING
WHETHER TWO AFFIRMATIVE DEFENSES ARE
AVAILABLE TO PARTIES UNDER “THE AMERICAN
LEGION V. AMERICAN HUMANIST ASSOCIATION . ”

Under The American Legion v. American Humanist Association, this Court can define the scope of the
relevancy that history of a monument should be considered as evidence in a lawsuit pursuant to 42
U.S.C. § 1983. In the instant matter, the district court
ignored any historical evidence of petitioner’s monument being directly tied to this site of its present
location. The Confederate Monument sits on the site
of the last Confederate flag flying at a Confederate
capital city. For historical reasons both the site and
the said monument have an inextricably link to the
content of its message. The said monument’s present
location serves as a priceless geographical artifact.
The basis for the passage of Resolution No. 69 stems
from an unsupported belief that the Confederate Monument represents slavery. The Respondent provided
no evidence or historical records as a basis which
shows that its actions were not content-neutral. The
Respondent’s lack of the content-neutral conclusion is
bolstered by the wording of the said Resolution which
states, “ . . . the Confederate Monument currently on
the lawn of the Caddo Parish Courthouse serves as an
object of division and a painful reminder of racial
inequalities locally and nationally.” And finally the
district court’s Ruling denying injunctive relief is not
plausible under the law when a preliminary injunction is in the public interest. Courts have repeatedly

32
recognized that the vindication of First Amendment
rights is a significant public interest. See, e.g., Giovani Carondola, Ltd. v. Bason, 303 F.3d 507, 521 (4th
Cir. 2002) (“upholding constitutional rights surely
serves the public interest.”); Christian Legal Society
v. Walker, 453 F.3d 853, 859 (7th Cir. 2006) (“[I]njunctions protecting First Amendment freedoms are always
in the public interest.”); Preminger v. Principi, 422 F.3d
815, 826 (9th Cir. 2005); Pacific Frontier v. Pleasant
Grove City, 414 F.3d 427, 436 (6th Cir. 2004). For these
reasons, the Court should promptly act to protect this
fragile monument from destruction at its historical
location absent a finding that the reasons for demolition
is content neutral and historically accurate. Under The
American Legion v. American Humanist Association,
this Court can and should resolve this issue concerning whether the public body ordering the removal of
a monument must use historically accurate facts as a
basis for its actions. The cursory treatment of the
Confederate Monument has placed it in grave danger.
This Court should act promptly especially when it
involves a fragile historical object endangered for
reasons unsupported by credible historical facts.
The Confederate Monument has been reduced to a
fragile state due to being outdoors for over a century.
The evidence presented shows that the irreparable
harm to UDC if the said monument is removed for the
removal constitutes a deprivation of its Fifth Amendment rights. The said monument cannot be removed
without it suffering expensive damages to its structure.
The Respondent wants to saw the Confederate Monument into small pieces and transport the pieces to a
warehouse. The Respondent provides no funding to

33
compensate the UDC for the cost of demolition and
storage of its pieces.
The Court should resolve the important issue of
statutory standing promptly. Based on the study
conducted by Mr. Michael Drummond Davidson who
analyzed “the Civil War Memorial.” Expert Drummond
found micro cracking to be evident in both granite
and marble of said memorial. And as a result of his
“visual condition survey and masonry evaluation of
the granite and marble,” he concludes that further
lab testing be done so the monument can be preserved
intact; and “it would be unwise to take the said
memorial down until lab work tells us more.”12 He
estimates that it would cost $1,260,000.00 (absent costs
for the new location) for the insurance and removal of
the Confederate Monument which cannot be in one
piece. Thus without standing under 42 U.S.C. § 1983,
the UDC can not prevent the Respondent’s actions
which constitutes an unconstitutional taking of the
UDC’s property in violation of its Fifth Amendment
rights which requires that the power of eminent domain
be coupled with “just compensation” for those whose
property is taken. See, Kelo v. City of New London,
545 U.S. 469 (2005). The instant matter is indistinguishable from Kelo because the Respondent has not
found UDC’s private property to be either blighted or
abandoned.
Since disassembly would destroy it, the Confederate Monument has to be moved in one piece. The
UDC’s expert Mr. William Nichols studied and mea12 See, Michael Drummond’s report in 18-30951 ROA. 17721849 (5th Cir.).

34
sured the said monument. Expert Nichols determines
that the said monument weighed 62.9-tons and he
wrote the following:
It is essential that the lifting equipment
hired to move the monument be sized based
on this largest “worst case” size of approximately 63-tons plus whatever measure of
safety is applied to their equipment. If a 15%
(85% of capacity) safety factor is applied
72.5-tons must be used to determine the lifting capacity of the equipment hired. The
monument is 30 foot tall and must clear 40
foot tall trees, thus the worst case calls for a
70 foot lift.
. . . I feel that moving the Caddo Parish Monument poses many potential risks of damage,
loss of property, logistics problems as well
as legal issues and costs to the parish and its
taxpayers and should not be attempted.13
Under The American Legion v. American Humanist Association, the Petitioner should be afforded all
available related affirmative defenses under federal
common law such as laches for any facts or evidence
involving the non-controversial history in which the
passing of time and the passing away of the witnesses
prejudices the petitioner’s claim. The Petitioner is
located in a state with a civil law system thanks to the
edict of the Emperor of the French Napoléon Bonaparte.
Not all common law doctrines have an equivalent civil
law counterpart. In Louisiana civil law system, no
13 See, William Nichols’ report in 18-30951 ROA. 1472-ROA
1478 (5th Cir.).

35
state laws either permit or deny laches. In lawsuits
involving a deprivation of constitutional rights pursuant
to 42 U.S.C. § 1983, a Louisiana resident is not afforded
the right to use laches as an affirmative defense. 42
U.S.C. § 1983 does not explicitly bar laches in jurisdictions that do not explicitly allow it. In light of The
American Legion v. American Humanist Association,
the Court can and should clarify whether a party can
use laches as an affirmative defense in jurisdiction
that do not explicitly bar it.
Usually laches applies as a defense against a
plaintiff’s claim in patent infringement cases. The
federal common law doctrine of laches clearly applies
to the respondent’s belated (well over one hundred
years!) claimed ownership of the property underneath
the Confederate Monument which gave it the authority
to order removal. In 1903, no evidence existed that
the Respondent owned Shreveport Block 23. In 1970,
the court in Akins mentions that the Respondent had
“actual possession” (which is not a legal term conferring
ownership in Louisiana law) of Shreveport Block 23.
See, Akins et al. v. Caddo Parish Police Jury, 234 So.2d
203. The term “actual possession” in Akins is similar
to “precarious possession” which means that the
Akins court did not find that the respondent actually
owned it. The Civil Code defines precarious possession
as “[t]he exercise of possession over a thing with the
permission of or behalf of the owner or possessor.”
See, La.C.C.Art. 3437. However, precarious possession
is insufficient for acquisitive prescription. See,
Boudreaux v. Cummings, 167 So.3d 559, 562 (La.
2015). By 2019, the Respondent has still not filed any
legal document purporting to own Shreveport Block
23. And the Respondent has still offered no excuse

36
for its belated claims of ownership. In everyday language the doctrine of laches refers to “sleeping on
one’s rights” especially when the UDC has occupied
the said “front plat” since 1903.
The district court rejected the petitioner first
raising the doctrine of laches in its Motion for Preliminary Injunction in the initial hearing.14 Louisiana’s
civil law system does not bar laches and for this
reason the petitioner should be afforded the opportunity to use laches as an affirmative defense in matters
involving historical events which span decades. None
of the Court’s decision has addressed this issue in
light of The American Legion v. American Humanist
Association. This Court should address the scope of
laches in matters involving the contested removal of
monument especially in matters where even the
grand-children of the eye-witnesses have died too.
Thus, due to the extremely stale property claims of
the Respondent, the evidence supporting the Peti14 In this case the district court reasoned that, “(“A federal
court adjudicating a state-law claim makes an initial reference
to state law to determine if laches and unclean hands are
‘complete’ defenses that may be used against both legal and
equitable claims. If the state law treats it as a complete bar,
and the federal standard for laches or unclean hands is the same
as the state, a federal court that ignored the defense would in
effect be creating a substantive right.”) (underline added). Allowing
UDC to affirmatively apply a common law defense in this case
would be inconsistent with the law on acquisitive prescription
discussed, supra. In other words, allowing UDC to affirmatively
use the defense of laches against the Commission [i.e. respondent] would, in effect, result in a finding that UDC had obtained
title or ownership to the plot where the Confederate Monument
sits by acquisitive prescription. See 18-30951 R.O.A. 655-R.O.A.
656 (5th Cir.).

37
tioner has been lost to time and for this reason the
Respondent’s claim of property ownership prejudices
the Petitioner’s case. In the instant matter, the petitioner proves both prongs of laches : (1) the Respondent has slept on its rights for no excusable reason,
and (2) the death of witnesses and loss of documents
prejudice the Petitioner’s case.15
III. THIS CASE PRESENTS AN OPPORTUNITY FOR THE
COURT TO RESOLVE WHETHER A DISTRICT COURT
HAS THE AUTHORITY TO ABROGATE THE TERMS OF AN
INTERNATIONAL TREATY WITHOUT CONGRESSIONAL
AUTHORITY.
This Court should grant the petition in order to
resolve whether or not a district court has the authority
to abrogate the Caddo Nation Treaty when the UDC has
standing to assert it. After Larkin Edwards purportedly
“sold his reservation” to the Shreve Town Company
in 1836, Larkin Edwards signed a later document which
declared that sale to be null and void in the clear language to that effect.16 Therefore, Shreveport Block 23
is still under the authority of the said treaty due to
the nullification of the purported sale of the floating
reservation. Thus, Larkin Edwards’s heirs still retain
an ownership interest in it and the Caddo Nation
possesses a financial lien on their last plot of their
ancestral lands. See, United States v. Brooks, 51 U.S.
10 How. 442 (1850). Accordingly, the UDC signed a
15 For a better discussion involving laches, see Petrella v. MetroGoldwyn-Mayer, Inc., 572 U.S. ___ (2014).
16 See the nullification of the previously mentioned sale, 1830951 ROA. 10319-ROA. 1032 (5th Cir.).

38
quitclaim deed with four heirs of Larkin Edwards on
April 19, 2019.
Since President Andrew Jackson and the Senate
of the United States ratified the Caddo Nation Treaty
in 1836, and the articles supplementary thereto, the
said Caddo Nation Treaty “is part of the supreme law
of the land, and as such must be respected and enforced
by the courts of the United States.” See, United States
v. Brooks, 51 U.S. 10 How. 442 (1850). Depending on
the applicable law, the Supreme Court Chief Justice
Roger Taney’s Court held that aboriginal title could
sometimes be asserted as a defense in trespass,
“ejectment”, and writ of right actions, even by those
with no claim to title themselves.17 In 1840, all of the
owners of the Shreve Town Company and Larkin
Edwards signed a nullification of the said purported
sale.18 Thus under the terms of the Caddo Nation
17 “ . . . That, as all the other defendants, besides Brooks, are
his vendees, and hold title under him, if the jury think from the
evidence that Brooks has no title to the land, then that the
other defendants stand in the same category, and are also
without title.” See, United States v. Brooks, 51 U.S. 10 How.
442 (1850). Under Brooks, the UDC has standing to use the
Caddo Nation Treaty as a defense of ejection or evidence of ownership for the petitioner has a quit claim deed to the land
underneath said monument.
18 On March 14, 1840 (filed on June 12, 1845), Larkin Edwards
signed a document which declared that the sale of his floating
reservation of 640 acres to Angus McNeil, Bushrod Jenkins, to
the Commercial firm of Bennet & Cane composed of William
Smith Bennet and James Huntington Cane, and to Captain
Henry Shreve [i.e. all of the owners of the Shreve Town Company] to be “null and void and as though the same had never
been passed, and I [i.e. Larkin Edwards] do hereby further bind
myself, my heirs, executors and administrators, to pass and sign

39
Treaty and under Brooks, the floating reservation of
640 acres donated to Larkin Edwards remained under
the provision of the said treaty except for the portions
of immovable property conveyed under Louisiana
law. By 1850, only one plot of land was still owned by
Larkin Edwards’ heirs subject to a possible financial
lien of the Caddo Nation. No heirs of Larkin Edwards
were notified of the taking of their property of Shreveport Block 23 by the Respondents. No notification of
the Caddo Nation of the taking of Shreveport Block
23 by the Respondents happened. By not addressing
the abrogation of the said Caddo Nation Treaty, the
lower court’s rulings in effect terminated the said
treaty.
The Court can and should conclusively resolve
the question whether the lower courts have the authority to abrogate an existing international treaty with
a Native American nation without either informing
all of the interested parties or under an express declaration of the U.S. Congress ending the terms of the
said international treaty. Under United States v.
Brooks the UDC has standing to assert a defense of
“ejectment” under the authority of the Caddo Nation
Treaty and it did. The petitioner informed the district court of the Respondents’ failure to inform the
heirs of Larkin Edwards and the Caddo Nation to
this lawsuit. The district court did not address it. On
appeal the U.S. Fifth Circuit did not address the
an authentic Act of Sale of the above mentioned tract of land
before any Notary or other public officer duly authorized to
receive and record contracts in the said State whenever I or
they do hereby required to do so.” Larkin Edwards never signed
an Act of Sale because he died under mysterious circumstances
in 1841.

40
abrogation of the CaddoTreaty either. During the
litigation in the lower courts, the U.S. Supreme Court’s
decision in Herrera v. Wyoming had not been
announced. Under Herrera v. Wyoming (which cited
Minnesota v. Mille Lacs Band of Chippewa Indians),
the U.S. Supreme Court states that Congress “must
clearly express” an intention to end a treaty with a
Native American tribe in order for the treaty’s rights
to expire. Herrera v. Wyoming, 587 U.S. ___ (2019)
and Minnesota v. Mille Lacs Band of Chippewa
Indians, 526 U.S. 172 (1999).19 Herrera v. Wyoming
would have precluded the lower courts from abrogating
the Caddo Nation Treaty whereby ejecting the UDC
from its property.
Under Herrera v. Wyoming, the district court does
not have the authority to abrogate the Caddo Nation
Treaty without the U.S. Congress terminating said
treaty. The lower courts’ decision to ignore the
existence of the Caddo Nation Treaty and failure to
order the notification of all interested parties is inconsistent with the rulings held in Brooks, Mille Lacs
Band of Chippewa Indians, and Herrera v. Wyoming.
The lower courts’ rulings suggest a split of authority
based upon a review of Minnesota v. Mille Lacs Band
of Chippewa Indians which looked at this issue. This
Court should resolve this conflict on whether the
lower courts have the authority to abrogate the terms
19 Minnesota v. Mille Lacs Band of Chippewa Indians, 526 U.S.
172 (1999), was a United States Supreme Court decision concerning the usufructuary rights of the Ojibwe (Chippewa) tribe
to certain lands it had ceded to the federal government in 1837.
The Court ruled that the Ojibwe retained certain hunting,
fishing, and gathering rights on the ceded land.

41
of an international treaty especially when it involves
the termination of a financial lien on the last parcel
of the Caddo Nation’s ancestral lands. This case affords
this Court to properly determine the scope of the
lower court’s authority when it comes to abrogation.

CONCLUSION
For the foregoing reasons, the Court should grant
the petition for a writ of certiorari to resolve the
conflict concerning important statutory and constitutional standing issues under 42 U.S.C. § 1983. And
the Court should further grant this petition in order
to resolve whether the affirmative defenses of historical
non-controversy of a Confederate Monument and laches
can be afforded to the Petitioner. In addition the Court
should grant a writ of certiorari which calls for an exercise of this Court’s supervisory power on an important
federal question concerning the abrogation of an international treaty in a way that conflicts with relevant
decisions of this Court in Herrera v. Wyoming.
Respectfully submitted,
DICK “DAVE” KNADLER
COUNSEL FOR PETITIONER
LAW OFFICE OF DICK
“DAVE” KNADLER, LLC

3223 FIRST STREET
MANSFIELD, LA 71052
(318) 925-1178
DKNADLER@HOTMAIL.COM
JULY 12, 2019

